                United States Department of the Interior
                              OFFICE OF INSPECTOR GENERAL
                                   Washington, DC 20240

                                                                                     March 1, 2004



The Honorable John F. Kerry
United States Senate
Washington, DC 20510-2102

Dear Senator Kerry:

        This is in response to your August 6, 2003 letter in which you requested that the Office of
Inspector General (OIG) conduct an investigation into the Department’s management of water
resources in the Klamath Basin. You directed our attention to a July 30, 2003 article in the Wall
Street Journal entitled, “Oregon Water Saga Illuminates Rove’s Methods with Agencies” and
called into question the Interior Department’s ability to meet its legal responsibilities in the
Klamath Basin.

        In your letter, you aptly observe that “[c]ommercial fishermen, Native Americans,
irrigators, conservationists and federal officials have been engaged in a contentious regulatory
proceeding over water management in the Klamath Basin that dates back several years.”
Clearly, the management of the water resources in the Klamath River Basin Project by the
Department of the Interior has been fraught with criticism and contention from all sides, two of
which are within the Department of the Interior itself. The concerns you advanced based on the
issues raised in the Wall Street Journal article, as well as those raised in other venues, made the
Klamath matter ripe for investigation by the OIG.

       As outlined in my letter to you dated August 28, 2003, the OIG focused its investigation
on three areas:

       1.      What would be the normal regulatory process in a matter such as this, assuming
               that this was an Administrative Procedures Act- governed regulatory matter.

       2.      What actually did happen in the administrative process in the Klamath Basin
               matter.

       3.      How the Klamath Basin matter deviated from the norm (if at all) with special
               attention being paid to:

               a. The science
               b. Any suppressed information
               c. Any evidence of political interference

        In conducting our investigation, we interviewed all of the key individuals – some of them
several times – who were involved with the Klamath River Basin Project. These individuals
represent all aspects of involvement in the Klamath Project – from staff- level employees of the
Bureau of Reclamation (BOR), the Fish and Wildlife Service (FWS) and the U. S. Geological
Survey (USGS) to the highest- level decision makers within the Department; the independent
scientists charged with reviewing competing reports and information; and the government
scientist who filed for Whistleblower protection with the Office of Special Counsel. We
reviewed hundreds of documents, including the documents contained in the Administrative
Record supporting BOR’s final decision regarding the Klamath Project’s Operations, as well as
documents filed with the United States District Court for the Northern District of California
where suit had been filed challenging BOR’s decision- making process.

        As a result of our investigation, we found fiercely competing interests among the
Klamath Tribes, irrigators, fishermen, environmentalists and even among opposing Federal
officials relating to the use and/or conservation of limited water resources in the Klamath
Project. We also found that these interests have highly charged differences of opinion
concerning what constitutes the best scientific and commercial data available, how the Project
should be operated, and how to accommodate specific, diverse and competing interests.
Unfortunately, when the competing interests are mutually exclusive of one another – as in the
Klamath matter – accommodation becomes impracticable.

        We determined that the administrative process followed in this matter did not deviate
from the norm. Our review of the available documents and the rulings of the U.S. District Court
for the Northern District of California support the conclusion that the Department had compiled
the necessary information to support its various decisions related to the Klamath Project.

        None of the individuals we interviewed – including the Whistleblower – was able to
provide any competent evidence that the Department utilized suspect scientific data or
suppressed information that was contained in economic and scient ific reports related to the
Klamath Project. To the contrary, the National Research Council of the National Academy of
Sciences in its Final Report, issued October 2003, specifically disagrees with the criticism that
had been directed against the Federal agencies for using “junk science”. This position is
bolstered by the findings of the U.S. District Court for the Northern District of California, which
concluded that in light of the conflicting state of scientific evidence, the decisions were based on
the best available science at the time.

        Finally, we found no evidence of political influence affecting the decisions pertaining to
the water in the Klamath Project. The individuals at the working- levels denied feeling pressured
at all. Based on our experience in past OIG investigations, these would have been the most
likely sources to provide evidence of such influence. Higher- level decision makers, both
political and career, also denied feeling any political pressure to render a decision one way or
another. Collectively, these decision makers described a process of thorough and thoughtful
consideration of all the competing interests and requirements, although frustrated by the fact that
certain interests and requirements were mutually exclusive. The cons istent denial of political
influence by government officials was corroborated by the view of the outside scientists and one
former DOI official, all of whom denied feeling any pressure – political or otherwise.
        While we confirmed a passing reference to the Klamath River Basin Project during an
otherwise- unrelated presentation to senior Interior officials, we found nothing to tie Karl Rove’s
comments or presentation to the Klamath decision- making process. The former DOI official,
who had spoken to the Wall Street Journal about Rove’s presentation, clarified to our
investigators that his use of the term “chilling effect” was not related to the Klamath Project. Of
the multiple DOI officials we interviewed who attended the presentation, only one person
specifically recalled the context in which Rove mentioned Klamath. This official recalled that
Rove merely cited Klamath as an example of the complex problems the Department had to deal
with.

        The complexity of the issues involved and the ferocity of the debate clearly fueled the
flames of suspicion and distrust in this matter. Based on the results of our investigation,
however, we conclude that the Department conducted itself in keeping with the administrative
process governing the Klamath Project, that the science and information utilized supported the
Department’s decisions, and that no political pressure was perceived by any of the key
participants.

        I hope this information puts to rest your concerns. If you have any questions, please do
not hesitate to call me at (202) 208-5745.

                                              Sincerely,




                                              Earl E. Devaney
                                              Inspector General
